                      DEPARTMENT OF HEALTH & HUMAN SERVICES
{	
     >                --
                                                                                             Office of Inspector General


                                                                                             Washington, D.C. 20201
                                                             - 5 2006
****v.,aa 	

                                                       GEC


              TO: 	         Julie L. Gerberding, M.D., M.P.H. 

                            Director 

                            Centers for Disease Control and Prevention 



              FROM: 	       Daniel R. Levinson-@-

                            Inspector General 



              SUBJECT: 	 Audit of Unobligated Balances of Funds Awarded Under the Public Health
                         Preparedness and Response for Bioterrorism Program (A-05-05-0003 1)


              The attached final report provides the results of our audit of unobligated balances of funds
              awarded under the Public Health Preparedness and Response for Bioterforism Program
              (Bioterrorism Program). From August 3 1, 1999, to August 30,2005, when the Bioterrorism
              Program ended, the Centers for Disease Control and Prevention (CDC) awarded almost
              $3 billion to States and major local health departments (awardees). To monitor the expenditure
              of these funds, CDC required awardees to submit financial status reports within 90 days after the
              end of each budget period. ~ h reports
                                                g      showed such information as the amounts expended,
              obligated, and unobligated.

              Our objectives were to determine how much funding remained unobligated at the close of the
              Bioterrorism Program and what factors contributed to the unobligated balances.

              At the close of the Bioterrorism Program, cumulative unobligated balances totaled more than
              $157 million for the 52 awardees that submitted financial status reports for the last budget
              period. This amount represented 15.8 percent of the approximately $996 million awarded for the
              last budget period, including cumulative carryover amounts.

              Although CDC had methods in place to monitor the obligation and expenditure of funds, many
                                                                                                                    "
              awardees did not fully execute their expenditure plans or submit timely financial status reports.
              Thus, CDC did not always receive the information needed to encourage the expenditure of funds
              and to minimize unobligated balances. In addition, CDC officials did not offset (reduce) new-
              year awards by the amount of unobligated funds carried over from the prior budget year, even
              though the Department's "Awarding Agency Grants Administration Manual" (the Manual)
              authorizes offsets. Although CDC is not required to implement the Manual, the use of such
              offsets could have minimized unobligated balances and made additional new-year funding
              available for awardees with greater needs.
Page 2 – Julie L. Gerberding, M.D., M.P.H.


Under its new Public Health Emergency Preparedness Program, which began August 31, 2005,
CDC has strengthened its guidance and established additional oversight controls. CDC also
reports that it has obtained departmental approval to use carryover funds from the prior budget
year to offset the amount of funding approved for the new budget period. In December 2004,
CDC issued guidance to grantees stating that unobligated balances may be carried forward and
used as an offset to new funding. It is too early, however, to determine whether these tools will
enable CDC to assist awardees in implementing their expenditure plans and thereby minimize
unobligated balances at the end of each budget year.

We recommend that CDC, in managing awards under its new program:

   •   ensure that awardees submit financial status reports in a timely manner;

   •   follow new program guidance to better manage grant funds among eligible entities and
       preparedness priorities; and

   •   when appropriate, offset new-year awards by the amount of unobligated funds carried
       over from the prior budget year to better manage large unobligated balances and meet
       program goals.

In written comments on our draft report, CDC concurred with our recommendations and stated
that it had taken a number of actions that had helped to significantly reduce unobligated
balances.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Joseph J. Green, Assistant Inspector General for Grants and
Internal Activities, at (202) 619-1175 or through e-mail at Joseph.Green@oig.hhs.gov. Please
refer to report number A-05-05-00031 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   AUDIT OF UNOBLIGATED
BALANCES OF FUNDS AWARDED
  UNDER THE PUBLIC HEALTH
PREPAREDNESS AND RESPONSE
 FOR BIOTERRORISM PROGRAM




                    Daniel R. Levinson
                     Inspector General

                      December 2006
                      A-05-05-00031
                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                                Notices 

-
                                                                               I




      THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

  In accordance with the principles of the Freedom of Information Act (5 U.S.C. 552,
  as amended by Public Law 104-231), Office of Inspector General, Office of Audit
  Services reports are made available to members of the public to the extent the
  information is not subject to exemptions in the act. (See 45 CFR part 5.)


                 OAS FINDINGS AND OPINIONS

 The designation of financial or management practices as questionable or a
 recommendation for the disallowance of costs incurred or claimed, as well as other
 conclusions and recommendations in this report, represent the findings and opinions
 of the HHSIOIGIOAS. Authorized officials of the HHS divisions will make final
 determination on these matters.




                                92   

                                 EXECUTIVE SUMMARY

BACKGROUND

Preparedness and Response Programs

From August 31, 1999, to August 30, 2005, the Public Health Preparedness and Response for
Bioterrorism Program (Bioterrorism Program) funded States and major local health departments
(awardees) to improve bioterrorism preparedness and response capabilities. The Centers for
Disease Control and Prevention (CDC), which administered the Bioterrorism Program, awarded
a total of almost $3 billion. To monitor the expenditure of these funds, CDC required awardees
to submit financial status reports within 90 days after the end of each budget period. The reports
showed such information as the amounts expended, obligated, and unobligated.

Following the end of the Bioterrorism Program, CDC initiated a new program, the Public Health
Emergency Preparedness Program. Participation in the new program is limited to those entities
funded under the Bioterrorism Program.

Office of Inspector General Reviews

A prior Office of Inspector General report (A-05-04-00027) found that as of August 30, 2003,
15 of the 17 audited awardees had unobligated balances totaling approximately $65 million, or
15 percent of the $428 million in Bioterrorism Program funds awarded. The report noted that
improvements were needed to ensure that funds were efficiently and effectively used. Our later
work at five awardees found continuing unobligated balances as of August 30, 2004.

This current report updates the status of unobligated balances as of August 30, 2005, based on
our review of awardees’ financial status reports.

OBJECTIVES

Our objectives were to determine how much funding remained unobligated at the close of the
Bioterrorism Program and what factors contributed to the unobligated balances.

SUMMARY OF FINDINGS

At the close of the Bioterrorism Program, cumulative unobligated balances totaled more than
$157 million for the 52 awardees that submitted financial status reports for the last budget
period. This amount represented 15.8 percent of the approximately $996 million awarded for the
last budget period, including cumulative carryover amounts.

Although CDC had methods in place to monitor the obligation and expenditure of funds, many
awardees did not fully execute their expenditure plans or submit timely financial status reports.
Thus, CDC did not always receive the information needed to encourage the expenditure of funds
and to minimize unobligated balances. In addition, CDC officials did not offset (reduce) new-
year awards by the amount of unobligated funds carried over from the prior budget year, even



                                                i
though the Department’s “Awarding Agency Grants Administration Manual” (the Manual)
authorizes offsets. Although CDC is not required to implement the Manual, the use of such
offsets could have minimized unobligated balances and made additional new-year funding
available for awardees with greater needs.

Under its new Public Health Emergency Preparedness Program, CDC has strengthened its
guidance and established additional oversight controls. CDC also reports that it has obtained
departmental approval to use carryover funds from the prior budget year to offset the amount of
funding approved for the new budget period. In December 2004, CDC issued guidance to
grantees stating that unobligated balances may be carried forward and used as an offset to new
funding. It is too early, however, to determine whether these tools will enable CDC to assist
awardees in implementing their expenditure plans and thereby minimize unobligated balances at
the end of each budget year.

RECOMMENDATIONS

We recommend that CDC, in managing awards under its new program:

   •   ensure that awardees submit financial status reports in a timely manner;

   •   follow new program guidance to better manage grant funds among eligible entities and
       preparedness priorities; and

   •   when appropriate, offset new-year awards by the amount of unobligated funds carried
       over from the prior budget year to better manage large unobligated balances and meet
       program goals.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In written comments on our draft report, CDC concurred with our recommendations and stated
that it had taken a number of actions that had helped to significantly reduce unobligated
balances.

CDC’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION..........................................................................................................................1

       BACKGROUND ....................................................................................................................1
          Public Health Preparedness and Response for Bioterrorism Program ..........................1
          Public Health Emergency Preparedness Program..........................................................2
          Prior Work at Awardees.................................................................................................2

       OBJECTIVES, SCOPE, AND METHODOLOGY................................................................2
           Objectives ......................................................................................................................2
           Scope..............................................................................................................................2
           Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................3

       UNOBLIGATED FUND BALANCES..................................................................................4

       FACTORS CONTRIBUTING TO UNOBLIGATED BALANCES .....................................6
           Expenditure Plans Not Executed ...................................................................................6
           Untimely and Infrequent Submission of Financial Status Reports................................6
           Offset Authority Not Used.............................................................................................6

       OVERSIGHT CONTROL IMPROVEMENTS .....................................................................7
          Controls for the Bioterrorism Program ..........................................................................7
          Guidance and Controls for the Public Health Emergency Preparedness Program ........8

       CONCLUSION.......................................................................................................................9

       RECOMMENDATIONS........................................................................................................9

       CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS .....................9

APPENDIXES

       A – AUDIT REPORTS ON FIVE AWARDEES

       B – COMPARISON OF BUDGET PERIODS 4 AND 5 BY PERCENTAGE OF
            FUNDS UNOBLIGATED

       C – CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                     iii
                                                 INTRODUCTION

BACKGROUND

Public Health Preparedness and Response for Bioterrorism Program

From August 31, 1999, to August 30, 2005, the Public Health Preparedness and Response for
Bioterrorism Program (Bioterrorism Program) funded States and major local health departments
(awardees) to improve bioterrorism preparedness and response capabilities. The Bioterrorism
Program was authorized under sections 301(a), 317(k)(1)(2), and 319 of the Public Health
Service Act (42 U.S.C. §§ 241(a), 247b(k)(1)(2), and 247d).

The Centers for Disease Control and Prevention (CDC) was responsible for administering the
Bioterrorism Program. Through August 30, 2005, CDC awarded almost $3 billion to the
50 States; the District of Columbia; the Commonwealths of Puerto Rico and the Northern
Marianas Islands; American Samoa; Guam; the U.S. Virgin Islands; the Republics of Palau and
the Marshall Islands; the Federated States of Micronesia; and the Nation’s three largest
municipalities—New York City, Chicago, and Los Angeles County. Table 1 summarizes newly
appropriated funding by budget period.

                                      Table 1: Budget Periods and Funding 1
                                                                                    Funding
                                         Budget Period                            (in Millions)
                         1 (August 31, 1999, to August 30, 2000)                          $40
                         2 (August 31, 2000, to August 30, 2001)                            41
                                                                     2
                         3 (August 31, 2001, to August 30, 2003)                           999
                         4 (August 31, 2003, to August 30, 2004)                           970
                         5 (August 31, 2004, to August 30, 2005)                           849
                            Total                                                      $2,899

To initiate the Bioterrorism Program, CDC published Program Announcement 99051 in the
spring of 1999 and then entered into cooperative agreements with awardees. The program
announcement and notice of cooperative agreement required awardees to submit financial status
reports and annual progress reports within 90 days after the end of each budget period. These
reports show such information as the amounts expended, obligated, and unobligated. CDC
provided guidance in the program announcement, notice of cooperative agreement, and
continuation guidance.

1
    Funding amounts do not include carryovers subsequently reported on financial status reports.
2
 After the events of September 11, 2001, CDC initiated an Emergency Supplemental award funded under the
Department of Defense and Emergency Supplemental Appropriations for Recovery from and Response to Terrorist
Attacks on the United States Act, 2002, Public Law 107-117. As a result, CDC issued cooperative agreement
amendments to extend budget period 3 from August 30, 2002, to August 30, 2003, and the program period from
August 30, 2004, to August 30, 2005.


                                                            1
Public Health Emergency Preparedness Program

Beginning August 31, 2005, following the end of the Bioterrorism Program, CDC initiated a new
program, the Public Health Emergency Preparedness Program. The purpose of the new program
is to upgrade and integrate State and local public health jurisdictions’ preparedness for and
response to terrorism and other public health emergencies. Participation is limited to those
entities funded under Program Announcement 99051.

CDC issued notices of cooperative agreement and provided guidance under Program
Announcement AA154. The program announcement cites 42 U.S.C. § 247d-3 as the statutory
authorization. The program is approved for a 5-year period with budget year 1 beginning
August 31, 2005, and ending August 30, 2006. Approximately $862 million is available to fund
budget year 1.

Prior Work at Awardees

A prior Office of Inspector General report found that as of August 30, 2003, 15 of the 17 audited
awardees had unobligated balances totaling approximately $65 million, or 15 percent of the
$428 million in Bioterrorism Program funds awarded. 3 The report noted that improvements
were needed to ensure that program funds were efficiently and effectively used.

Based on the significant unobligated funds found in the prior audit, we audited five awardees
(Arkansas, the District of Columbia, Massachusetts, North Carolina, and Ohio) to determine the
status of unobligated funds as of August 30, 2004. We also assessed whether the awardees
claimed only allowable costs and whether program funding supplemented and did not supplant
existing levels of local funding. We presented the results in individual reports to the five
awardees. (See Appendix A.)

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine how much funding remained unobligated at the close of the
Bioterrorism Program and what factors contributed to the unobligated balances.

Scope

This report combines the data found in our prior work at awardees with our review of the
54 financial status reports submitted by the 50 States, the District of Columbia, and 3 major
metropolitan areas for budget period 4 (August 31, 2003, to August 30, 2004) and the 52
financial status reports submitted for budget period 5 (August 31, 2004, to August 30, 2005). 4

3
“Nationwide Audit of State and Local Government Efforts to Record and Monitor Subrecipients’ Use of Public
Health Preparedness and Response for Bioterrorism Program Funds” (A-05-04-00027, issued August 5, 2004).
4
 As of the end of our fieldwork, Georgia and Iowa had not submitted financial status reports for budget period 5
because CDC had granted extensions.


                                                         2
We did not review CDC’s overall internal control structure. We limited our internal control
review to obtaining an understanding of the financial status reports. During our prior work at
awardees, we reviewed the awardees’ procedures to account for Bioterrorism Program funds.
We conducted our fieldwork at CDC offices in Atlanta, Georgia, during 2005.

Methodology

To meet our objectives, we consolidated the unobligated balance information for budget period 5
and the identified causes of unobligated balances at the previously audited awardees.

During our visits to CDC, we obtained financial status reports for budget periods 4 and 5.
Because some awardees had not submitted financial status reports at the time of our visits, CDC
officials provided copies as they became available.

The purpose of gathering the financial status reports was to determine the extent of unobligated
fund balances and to assess the timeliness of the reports. We obtained budget period 5 financial
status reports to identify amounts reported at the close of the Bioterrorism Program and budget
period 4 financial status reports to compare and contrast amounts between budget periods. We
also interviewed CDC fiscal and program officials to gain an understanding of and clarify
program requirements and to identify CDC’s oversight activities, especially those intended to
minimize unobligated balances.

We performed our review in accordance with generally accepted government auditing standards.

                          FINDINGS AND RECOMMENDATIONS

At the close of the Bioterrorism Program, cumulative unobligated balances totaled more than
$157 million for the 52 awardees that submitted financial status reports for budget period 5. This
amount represented 15.8 percent of the approximately $996 million awarded for budget period 5,
including cumulative carryover amounts.

Although CDC had methods in place to monitor the obligation and expenditure of funds, many
awardees did not fully execute their expenditure plans or submit timely financial status reports.
Thus, CDC did not always receive the information needed to encourage the expenditure of funds
and to minimize unobligated balances. In addition, CDC officials did not offset (reduce) new-
year awards by the amount of unobligated funds carried over from the prior budget year, even
though the Department’s “Awarding Agency Grants Administration Manual” (the Manual)
authorizes offsets. Although CDC is not required to implement the Manual, the use of such
offsets could have minimized unobligated balances and made additional new-year funding
available for awardees with greater needs.

Under its new Public Health Emergency Preparedness Program, CDC has strengthened its
guidance and established additional oversight controls. CDC also reports that it has obtained
departmental approval to offset award amounts by carryover funds from the prior budget year.
In December 2004, CDC issued guidance to grantees stating that unobligated balances may be
carried forward and used as an offset to new funding. It is too early, however, to determine



                                                3
whether these tools will enable CDC to assist awardees in implementing their expenditure plans
and thereby minimize unobligated balances at the end of each budget year.

UNOBLIGATED FUND BALANCES

Program Announcement 99051 established a goal of fully expending authorized Bioterrorism
Program funds and stated that: “The activities to be funded through this program are considered
to be of application core importance to the security of the country. It is CDC’s intent that
applications that are funded should be pursued vigorously with as little time lost in start-up as
possible.” Although awardees submitted expenditure plans that described efficient and effective
use of Bioterrorism Program funds, awardees did not fully execute their expenditure plans and
did not fully use authorized funds by the end of the Bioterrorism Program.

Unobligated balances of about 15 percent of the awarded amounts occurred throughout the
project period. Fifty-four awardees had unobligated balances of $168 million as of August 30,
2004, and 52 awardees had unobligated balances of more than $157 million as of August 30,
2005, the close of the Bioterrorism Program. These amounts represented 15.4 percent of the
$1,094 million awarded for budget period 4 and 15.8 percent of the $996 million awarded for
budget period 5. (See Appendix B for details.) Our prior audit (A-05-04-00027) reported a
14-percent unobligated rate for budget periods 1 through 3 for the 17 awardees reviewed.

Table 2 shows the 10 awardees with the largest balances of unobligated funds at the end of the
Bioterrorism Program (budget period 5). Collectively, the 10 awardees received 30.2 percent of
the $996 million awarded for budget period 5.

                    Table 2: Budget Period 5 Top 10 Awardees by Unobligated Balance
                                                       Unobligated
                                   Federal Funds        Balance of         Percentage
                   Awardee           Awarded 5        Federal Funds       Unobligated
              Texas                  $67,170,118       $13,825,974            20.6%
              District of Columbia          20,032,292            12,227,280                61.0%
              Los Angeles                   28,414,156            10,198,192                35.9%
              Pennsylvania                  50,776,737              6,448,560               12.7%
              North Carolina                21,288,709              6,068,396               28.5%
              Oregon                        16,048,213             5,239,116                32.6%
              Indiana                       17,998,528              5,097,866               28.3%
              Arizona                       20,020,724              5,012,352               25.0%
              Ohio                          39,091,923             4,588,466                11.7%
              Louisiana                     20,235,952             4,375,905                21.6%

Table 3 shows the 10 awardees that received the largest awards and their unobligated balances
for budget period 5. Collectively, the 10 awardees received 42.4 percent of the $996 million
awarded for budget period 5.

5
    Federal funds awarded include carryover amounts reported on financial status reports.


                                                            4
                       Table 3: Budget Period 5 Top 10 Awardees by Award Amount
                                                        Unobligated
                                    Federal Funds        Balance of     Percentage
                                                6
                      Awardee          Awarded         Federal Funds   Unobligated
                   California         $68,819,980         $1,882,804        2.7%
                   Texas                     67,170,118            13,825,974               20.6%
                   Pennsylvania              50,776,737             6,448,560               12.7%
                   Florida                   43,704,396             3,471,791                7.9%
                   Ohio                      39,091,923             4,588,466               11.7%
                   New York                  34,254,995             4,353,356               12.7%
                   Michigan                  30,704,353             2,294,482                7.5%
                   New Jersey                30,516,430             4,026,766               13.2%
                   Massachusetts             28,553,869             4,059,361               14.2%
                   Los Angeles               28,414,156            10,198,192               35.9%

Three of these top ten awardees had unobligated balances of less than 10 percent in budget
period 5. Thus, the amount of yearend unobligated funds does not appear to be directly related
to the size of the award. For example, California received almost $69 million, of which only
2.7 percent was unobligated, while Texas received $67 million, of which 20.6 percent was
unobligated.

Some awardees had recurring large unobligated balances. Table 4 presents the six awardees that
had double-digit percentages of unobligated funds in both budget periods 4 and 5.

                   Table 4: Awardees With Double-Digit Percentages of Unobligated Funds
                                         in 2 Consecutive Years
                                          Budget Period 4                         Budget Period 5
                                     Unobligated                             Unobligated
                                      Balance of     Percentage               Balance of     Percentage
                 Awardee            Federal Funds   Unobligated             Federal Funds   Unobligated
         Arizona                        $3,128,511           15.4%              $5,012,352          25.0%
         District of Columbia            6,984,411              41.2%           12,227,280          61.0%
         Louisiana                       6,252,809           36.8%               4,375,905          21.6%
         Ohio                            5,551,520           15.7%               4,588,466          11.7%
         Pennsylvania                   16,667,434           43.6%               6,448,560          12.7%
         Texas                          11,647,176           16.9%              13,825,974          20.6%




6
    Federal funds awarded include carryover amounts reported on financial status reports.


                                                            5
FACTORS CONTRIBUTING TO UNOBLIGATED BALANCES

Expenditure Plans Not Executed

For each budget period, CDC authorized funding based on established formulas, and awardees
submitted expenditure plans (budgets and budget justifications) to CDC in line with their
authorized funding. However, awardees did not always execute their expenditure plans by the
end of the budget period.

The audited awardees experienced expenditure delays related to difficulties in recruiting and
hiring personnel; coordinating the start of new activities; executing contracts; and purchasing
laboratory equipment, supplies, and other materials. Recruiting and hiring difficulties were
caused by unexpected staffing changes and hiring freezes, while difficulties in starting new
activities were caused by an extensive needs assessment process. Expenditures related to
executing contracts were delayed by the need to issue Requests for Proposals, evaluate bids, and
select the contractors.

Untimely and Infrequent Submission of Financial Status Reports

CDC’s notice of cooperative agreement stated: “To assure proper reporting and segregation of
funds for each focus area, Financial Status Reports . . . must be submitted for individual focus
areas not later than 90 days after the end of the budget period.” CDC needed the information in
these reports to determine whether unobligated prior-year funds should be deobligated and
recovered; carried forward and added to new funding; or carried forward and deducted from new
funding, thereby freeing up money to be spent on awardees needing additional funding. In some
cases, the information in the reports may have indicated the need for CDC to take administrative
enforcement action, such as the suspension or termination of a grant (45 CFR § 92.43).

Contrary to the requirement in CDC’s notice of cooperative agreement, awardees submitted
61 percent of their financial status reports for budget period 4 and 39 percent of the reports for
budget period 5 more than 90 days after the budget period ended. CDC therefore did not always
have sufficient information to properly oversee the Bioterrorism Program and to accurately
calculate award amounts based on expended, obligated, and unobligated funds reported.
Additionally, the submission of financial status reports only once a year did not provide CDC
with adequate and timely information. Even when submitted within the required 90-days after
the end of the budget year, the reports were not timely enough to make decisions on current-year
funding allocations.

Offset Authority Not Used

CDC guidance addressed unobligated funds by encouraging awardees to submit carryover
requests and by advising awardees that unjustified carryovers of unobligated balances would be
offset against the next year’s authorized funding level. Specifically, Program Announcement
99051’s continuation guidance for budget period 4, dated May 2, 2003, stated: “Applicants are
encouraged to submit carry-over requests to complete critical projects undertaken in response to
prior CDC guidance that were begun but not completed in the previous budget period and/or to



                                                6
support unforeseen needs within the scope of this cooperative agreement.” The continuation
guidance also stated that “Estimated FY [fiscal year] 2002 supplemental unobligated funds that
are not adequately justified or for which a written carry-over request is not received by July 1,
2003 will be brought forward in lieu of new (FY 2003) funds.” Despite this guidance, CDC
carried forward all unobligated balances and added those funds to the full amount of new-year
funding regardless of whether awardees adequately justified their unobligated balances.

Departmental policy described in the Manual provides authority to offset new-year grant awards
by the amount of unobligated funds carried forward from the prior budget period. Section
2.04.104B-5E.2.a of the Manual provides that if unobligated balances are not deobligated at the
end of a budget period but instead are authorized for carryover, the awarding office may:

         (1)      Add the funds to the full amount otherwise approved for the non-competing
                  continuation award for the budget period into which the funds are carried,
                  and allow them to be used for the purpose(s) for which they were originally
                  authorized or other purposes within the scope of the application as originally
                  approved (the approved budget is modified and/or increased accordingly); or

         (2)      Use them as an offset (reduction) to the amount of funding otherwise
                  approved for the non-competing continuation award for the applicable
                  budget period, reducing the amount of new Federal funds awarded while the
                  budget and activities for the applicable budget period remain as previously
                  approved.

Although CDC is not required to implement the Manual, 7 it could have adopted any of the
Manual’s policies. In fact, CDC stated in its continuation guidance governing budget period 4
that it intended to follow the grants management practice of offsetting the amount of new
funding by the amount carried forward. Had CDC done so, it could have managed those
awardees that were not spending at the anticipated rate by offsetting their continuation awards in
subsequent years. CDC then could have awarded current-year funds that were not needed by
awardees with large, inadequately justified carryovers to awardees with greater needs. By using
this grants management tool, CDC could have minimized unobligated balances at the end of a
budget period and maximized the funding available each year.

OVERSIGHT CONTROL IMPROVEMENTS

Controls for the Bioterrorism Program

Based partially on our prior report (A-05-04-00027) and subsequent audit work, CDC
strengthened its monitoring and oversight controls in an attempt to reduce the level of
unobligated balances under the Bioterrorism Program. CDC implemented the Unified Financial
Management System to monitor each awardee’s funding level and ensure that it reflects the
appropriate amount of authorized funding. CDC also implemented the Division of State and
Local Readiness Management Information System, accessible by both CDC officials and
awardees, to monitor the execution of expenditure plans and convened meetings to discuss
7
    See section 1.01.101-2.A, note 1, of the Manual.


                                                       7
awardee budget requests, funding, and program progress. In addition, CDC provided training
and technical assistance to staff to share information concerning all aspects of the Bioterrorism
Program and formed committees of CDC project officers and awardees to review and enhance
the management information system.

Despite these efforts, unobligated balances continued to exist at the end of the Bioterrorism
Program.

Guidance and Controls for the Public Health Emergency Preparedness Program

To prevent the accrual of large balances of unobligated funds under the new Public Health
Emergency Preparedness Program, CDC issued stronger guidance and made additional fiscal and
programmatic changes. Program Announcement AA154 states: “Grantees that fail to comply
with the terms and conditions of this cooperative agreement, including responsiveness to
program guidance, measured progress in meeting the performance measures, and adequate
stewardship of federal funds may be subject to an administrative enforcement action.”
According to the announcement, continuing large unobligated balances may indicate a failure to
comply with the terms and conditions of the cooperative agreement, and CDC could take the
enforcement actions described in 45 CFR § 92.43.

Additional changes in oversight controls include more frequent submissions of progress reports
and financial status reports. Prior Bioterrorism Program guidance initially required annual
progress reports and then changed the requirement to semiannual progress reports (February 15,
2002, guidance for FY 2002 supplemental funds). In contrast, Program Announcement AA154
requires quarterly progress reports using CDC report templates to assess outcomes under the
Public Health Emergency Preparedness Program. The progress reports must be submitted
through the management information system, decreasing the lag time between submission and
review. The announcement also requires midyear and yearend financial status reports on
expended, obligated, and unobligated balances. In addition, it requires awardees to submit
estimated financial status reports with their yearly applications. These three financial status
reports, plus additional information gathered from day-to-day management and oversight
operations, should provide an up-to-date picture of awardee progress.

CDC officials informed us that CDC had recently obtained departmental approval to offset
award amounts by carryover funds under the new program. CDC officials told us that they had
not made a final decision on how to use the offset funds. Officials believed that they could
award the offset funds to existing awardees without changing the scope of the awards because
the funds would be used for preparedness efforts consistent with the original awards, such as
regional collaboration or best practices in dealing with vulnerable populations. We note that
CDC’s Web site contains guidance to grantees that mirrors the Manual’s policy permitting the
carryforward of unobligated balances into a successive budget year and the offsetting of new
funding by the amount carried forward. 8 This guidance was published in December 2004, and
we do not know whether CDC had any prior guidance reflecting this policy.


8
 See “Grantee’s Financial Reference Guide for Managing CDC Grants and Cooperative Agreements” (December
2004). Available online at http://www.cdc.gov/od/pgo/funding/pubcommt.pdf. Accessed on July 18, 2006.


                                                    8
CONCLUSION

Despite CDC’s monitoring of the Bioterrorism Program, significant unobligated balances
continued to exist. Because most awardees that failed to fully execute their expenditure plans
did not submit timely financial status reports, CDC did not have sufficient information to ensure
that program funds were fully used to meet program goals. Also, although the Manual provides
authority to offset new-year funds by unobligated balances carried over from the prior budget
period, CDC did not use this authority.

CDC has strengthened its guidance and oversight controls and has obtained departmental
approval to offset grant awards under its new Public Health Emergency Preparedness Program.
However, it is too early to determine whether these steps will correct the expenditure execution
problems and unobligated balances noted under the Bioterrorism Program.

RECOMMENDATIONS

We recommend that CDC, in managing awards under its new program:

   •   ensure that awardees submit financial status reports in a timely manner;

   •   follow new program guidance to better manage grant funds among eligible entities and
       preparedness priorities; and

   •   when appropriate, offset new-year awards by the amount of unobligated funds carried
       over from the prior budget year to better manage large unobligated balances and meet
       program goals.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its October 30, 2006, written comments on our draft report, CDC concurred with our
recommendations and stated that it had taken a number of actions that had helped to significantly
reduce unobligated balances. CDC also provided technical comments, which we incorporated
into this final report.

CDC’s comments are included in their entirety as Appendix C.




                                                9
APPENDIXES
                                                                                APPENDIX A


                                   AUDIT REPORTS ON FIVE AWARDEES


            Awardee                                      Report Number 1   Date Issued

Arkansas Department of Health                            A-06-05-00025     August 5, 2005

District of Columbia Department of Health                A-03-04-00353     June 21, 2005

Massachusetts Department of Public Health                A-01-04-01503     March 4, 2005

North Carolina Department of Health                      A-04-04-01002     July 27, 2005
and Human Services

Ohio Department of Health                                A-05-04-00051     February 4, 2005




1
    These reports are available at http://oig.hhs.gov.
                                                                                                 APPENDIX B
                                                                                                   Page 1 of 2

                            COMPARISON OF BUDGET PERIODS 4 AND 5
                            BY PERCENTAGE OF FUNDS UNOBLIGATED

                                                                Unobligated Balance of            Percentage
                           Federal Funds Awarded 1                  Federal Funds                Unobligated
                            Budget        Budget                Budget        Budget           Budget Budget
                            Period         Period               Period         Period          Period   Period
     Awardee                   4              5                    4              5              4         5
District of
Columbia                   $16,953,474       $20,032,292        $6,984,411       $12,227,280   41.2%    61.0%
Nebraska                     9,004,794         7,513,167                 0         3,027,592    0.0%    40.3%
Los Angeles                 30,198,783        28,414,156         1,467,285        10,198,192    4.9%    35.9%
Oregon                      17,039,499        16,048,213         1,256,670         5,239,116    7.4%    32.6%
Nevada                      10,953,790        13,077,219         3,293,392         3,943,518   30.1%    30.2%
Chicago                     11,977,908        14,615,376         1,110,513         4,299,727    9.3%    29.4%
New Hampshire                8,725,305         8,725,305           852,780         2,534,624    9.8%    29.0%
South Dakota                 6,975,546         7,794,491         2,463,937         2,222,848   35.3%    28.5%
North Carolina              26,020,533        21,288,709           738,248         6,068,396    2.8%    28.5%
Indiana                     26,971,704        17,998,528         1,891,678         5,097,866    7.0%    28.3%
Delaware                     9,881,459         9,673,981         4,078,223         2,593,009   41.3%    26.8%
Vermont                      7,973,690         7,209,406         2,520,000         1,918,590   31.6%    26.6%
South Carolina              15,077,331        16,091,145           678,645         4,100,247    4.5%    25.5%
Arizona                     20,377,936        20,020,724         3,128,511         5,012,352   15.4%    25.0%
Louisiana                   17,009,305        20,235,952         6,252,809         4,375,905   36.8%    21.6%
Texas                       68,858,586        67,170,118        11,647,176        13,825,974   16.9%    20.6%
Maryland                    18,510,064        14,806,853                 0         3,014,538    0.0%    20.4%
Wisconsin                   20,255,129        17,361,517         2,163,459         3,490,789   10.7%    20.1%
North Dakota                 6,423,043         5,631,748                 0           991,825    0.0%    17.6%
Illinois                    30,654,048        25,569,678           494,084         4,304,396    1.6%    16.8%
Wyoming                      5,953,862         7,719,940           700,000         1,187,200   11.8%    15.4%
Massachusetts               32,377,306        28,553,869        11,036,537         4,059,361   34.1%    14.2%
Alabama                     16,786,043        17,079,781         3,739,235         2,389,461   22.3%    14.0%
New Mexico                  13,319,379        11,826,157         6,391,831         1,647,489   48.0%    13.9%
New Jersey                  30,660,360        30,516,430         4,301,514         4,026,766   14.0%    13.2%
New York                    35,863,566        34,254,995         1,760,148         4,353,356    4.9%    12.7%
Pennsylvania                38,212,027        50,776,737        16,667,434         6,448,560   43.6%    12.7%
Mississippi                 17,112,807        14,303,036         4,631,566         1,806,822   27.1%    12.6%
Idaho                        9,366,998         8,485,043         1,988,888         1,021,810   21.2%    12.0%
Kentucky                    18,169,281        15,632,906         2,122,000         1,839,894   11.7%    11.8%
Ohio                        35,368,314        39,091,923         5,551,520         4,588,466   15.7%    11.7%
New York City               22,019,999        25,875,515                 0         3,000,218    0.0%    11.6%
Rhode Island                 7,545,070         6,561,276                 0           755,783    0.0%    11.5%
Alaska                       6,196,964         5,412,040           117,601           575,633    1.9%    10.6%
Tennessee                   20,299,547        15,929,481         3,170,562         1,676,313   15.6%    10.5%
Minnesota                   18,182,765        15,129,116           562,891         1,516,784    3.1%    10.0%

1
    Federal funds awarded include carryover amounts reported on financial status reports.
                                                                                                  APPENDIX B
                                                                                                    Page 2 of 2

                                                              Unobligated Balance of               Percentage
                        Federal Funds Awarded 1                    Federal Funds                  Unobligated
                         Budget        Budget                 Budget         Budget            Budget Budget
                         Period         Period                 Period        Period            Period    Period
    Awardee                 4              5                      4              5                4         5
Colorado                 17,896,688    16,084,461              2,552,529      1,546,554         14.3%      9.6%
West Virginia            10,007,010     9,529,605                671,202        835,198          6.7%      8.8%
Florida                  46,997,742    43,704,396              1,098,464      3,471,791          2.3%      7.9%
Virginia                 29,313,295    21,790,488                625,683      1,727,866          2.1%      7.9%
Michigan                 35,271,511    30,704,353              3,066,738      2,294,482          8.7%      7.5%
Connecticut              14,196,592    15,389,873              3,494,088      1,147,914         24.6%      7.5%
Maine                    11,134,001     6,892,377                669,941        485,954          6.0%      7.1%
Arkansas                 13,284,891    12,123,140              4,792,311        848,721         36.1%      7.0%
Montana                   7,380,744     7,635,483              1,062,214        527,821         14.4%      6.9%
Missouri                 19,160,450    17,324,425             11,300,788      1,039,976         59.0%      6.0%
Oklahoma                 16,248,592    14,394,566              2,337,152        843,468         14.4%      5.9%
Hawaii                    8,801,780     6,752,866                365,782        346,003          4.2%      5.1%
Utah                     10,423,316     8,964,779                200,000        316,908          1.9%      3.5%
California               70,101,613    68,819,980              6,061,283      1,882,804          8.6%      2.7%
Washington               17,845,226    19,684,947                879,692        429,550          4.9%      2.2%
Kansas                   11,551,136     9,504,019                      0              0          0.0%      0.0%
Georgia 2                34,365,094                           12,987,000                        37.8%
Iowa2                    12,726,247                            2,178,804                        17.1%

    Total            $1,093,982,147      $995,726,586      $168,107,223      $157,125,715       15.4%       15.8%




2
 As of the end of our fieldwork, Georgia and Iowa had not submitted financial status reports for budget period 5
because the Centers for Disease Control and Prevention had granted extensions.
APPENDIX C
  Page 1 of 2
APPENDIX C
  Page 2 of 2
